   U.S. Department of the Interior
   Office of Inspector General




              AUDIT REPORT


OIL AND GAS TRANSPORTATION ALLOWANCES
    AND GAS PROCESSING ALLOWANCES,
      MINERALS MANAGEMENT SERVICE

                REPORT NO. 00-I-290
                   MARCH 2000
         U.S. Department of the Interior                                Office of Inspector General


                                      EXECUTIVE SUMMARY
                                  Oil and Gas Transportation Allowances
                                      and Gas Processing Allowances,
                                       Minerals Management Service
                                           Report No. 00-I-290
                                                March 2000

         BACKGROUND

         The Minerals Management Service (MMS) is responsible for collecting and accounting for
         rental and royalty payments received under all Federal and Indian oil and gas leases and
         determining whether royalties received for products represent fair and equitable value. To
         fulfill these obligations, MMS promulgates regulations concerning the sales and payment of
         royalties on crude oil, natural gas, and liquid products from Federal and Indian leases. The
         Code of Federal Regulations (30 CFR 202 and 206) contains regulations that pertain to
         MMS’s transportation and gas processing allowances. The regulations allow royalty payors
         to reduce royalties by claiming deductions for reasonable and actual costs of transporting oil
         and gas and processing gas on allowance reports.

         MMS’s automated allowance tracking system is used to monitor transportation and
    i    processing allowances to determine whether deductions exceed regulatory limits on
    i    allowances. The system identifies those leases for which the allowance deduction exceeds
    k
         a specified maximum percentage of the oil or gas value at the point of sale. This system also
    E    identifies and bills payors for additional royalties when allowances have been deducted from
         royalties due and the required forms to deduct the allowances have not been filed. MMS
         officials said that the tracking and billing program portion of the system was terminated in
    [    1994 because the system required too many resources and generated too many errors.
    :’
    L1
         During calendar years 1996 through 1998, MMS collected revenues of more than
         $17.8 billion from approximately 25,471 Federal and Indian mineral leases, of which
t
/        $11.4 billion was for oil and gas royalties. Royalty payors deducted about $222.5 million
t        in oil and gas transportation allowances and $111 million in gas processing allowances from
 k
 [.      royalty payments for the 3-year period. For calendar years 1996 through 1998, MMS
 E       oversaw collections ofroyalties of $331 million on approximately 3,723 Indian leases with
 k
 6       gas ($203 million) and oil ($128 million) production.
 !.
i1:
i        OBJECTIVE
1
         The objective of the audit was to determine whether MMS satisfactorily implemented the
1        recommendations made in our 1994 report and ensured that royalty payors deducted only the
%!       appropriate amount of oil and gas transportation allowances from royalties due.
i
F
i

:
RESULTS IN BRIEF

We found that two of the three prior recommendations in our August 1994 report were no
longer valid for Federal leases or Indian gas leases after December 3 1, 1999, because of
revisions to the valuation regulations and that MMS had implemented the remaining
recommendation. In addition, based on our limited audit of both offshore and onshore
transportation allowances and offshore gas processing allowances on selected leases, we
found that royalty payors had deducted the appropriate amount of oil and gas transportation
and processing allowances from royalties due. However, MMS was not maintaining an
accurate filing system for tracking allowance reports for oil production on Indian leases. We
believe that MMS should maintain a filing system so that it can provide information from
the allowance reports, copies of the arm’s_length contracts, or actual cost information to the
tribes when requested by tribal officials. At a State and Tribal Royalty Audit Committee
meeting, MMS presented steps it will take for filing, tracking, and distributing data and
forms for Indian leases. The steps were accepted by Committee members.

RECOMMENDATIONS

The report did not contain any recommendations.

AUDITEE COMMENTS

In our March 9,2000, exit conference with officials from MMS headquarters and the Royalty
Management Program, the officials agreed with the conclusions presented in a draft of this
report.
                                                                        C-IN-MMS-003-99-D


              United States Department of the Interior
                            OFFICE OF INSPECTOR GENERAL
                                     Washington, D.C. 20240


                                                                      MAR 2 7 mo
                                  AUDIT REPORT

Memorandum

To:         Director, Minerals Management Service

From:       Roger La Rouche &.+&!Z&-
            Acting Assistant Inspector General for Audits

Subject:    Audit Report on Oil and Gas Transportation Allowances and Gas
            Processing Allowances, Minerals Management Service ( . 00-1-290)NO




                                  INTRODUCTION
This report presents the results of our followup review of recommendations contained in our
August 1994 audit report entitled “Transportation and Processing Allowance Deductions,
Minerals Management Service” (No. 94-I-l 110). The objective ofthe followup review was
to determine whether the Minerals Management Service (MMS) satisfactorily implemented
the recommendations made in our 1994 report and ensured that royalty payors deducted only
the appropriate amount of oil and gas transportation allowances from royalties due.

BACKGROUND

According to the Federal Oil and Gas Royalty Management Act of 1982 (30 U.S.C.
4 1711 (a)), the Secretary of the Interior is required to “establish a comprehensive inspection,
collection and fiscal and production accounting and auditing system to provide the capability
to accurately determine oil and gas royalties, interest, fines, penalties, fees, deposits, and
other payments owed, and to collect and account for such amounts in a timely manner.”

MMS is composed of two specialized programs: the Royalty Management Program and the
Offshore Minerals Management Program. All mineral revenue functions are centralized
within the Royalty Management Program, which collects, accounts for, and distributes
revenues generated from Federal and Indian lands and the Outer Continental Shelf MMS’s
Offshore Minerals Management Program conducts leasing activities for and provides
oversight of mineral operations on the Nation’s Outer Continental Shelf. MMS is responsible
for collecting and accounting for rental and royalty payments received under all Federal and
Indian oil and gas leases and determining whether royalties received for products represent
fair and equitable value. To fulfill these obligations, MMS promulgates regulations
concerning the sales and payment of royalties on crude oil, natural gas, and liquid products


                                               3
from Federal and Indian leases. The Code of Federal Regulations (30 CFR 202 and 206)
contains regulations that pertain to MMS’s transportation and gas processing allowances.
The regulations allow royalty payors to reduce royalties by claiming deductions for
reasonable and actual costs of transporting oil and gas and processing gas on allowance
reports (Form MMS-4 110, “Oil Transportation Allowance Report”; Form MMS-4295, “Gas
Transportation Allowance Report”; or Form 4109, “Gas Processing Allowance Report”).
Payors are required to file Form MMS-2014, “Report of Sales and Royalty Remittance,”
which identities royalties due and deductions for these allowances.

MMS’s automated allowance tracking system is used to monitor transportation and
processing allowances to determine whether deductions exceed regulatory limits on
allowances. The system identifies those leases for which the allowance deduction exceeds
a specified maximum percentage (50 percent for oil and gas transportation and 66.7 percent’
for gas processing) of the oil or gas value at the point of sale. This system also identifies and
bills payors for additional royalties when allowances have been deducted from royalties due
and the required forms to deduct the allowances have not been filed. MMS officials said that
the tracking and billing program portion of the system was terminated in 1994 because the
system required too many resources and generated too many errors.

During calendar years 1996 through 1998, MMS collected revenues of more than
$17.8 billion from approximately 25,471 Federal and Indian mineral leases, of which
$11.4 billion was for oil and gas royalties. Royalty payors deducted about $222.5 million
in oil and gas transportation allowances and $111 million in gas processing allowances from
royalty payments for the 3-year period. For calendar years 1996 through 1998, MMS
oversaw collections of royalties of $33 1 million on approximately 3,723 Indian leases with
gas ($203 million) and oil ($128 million) production.

SCOPE OF AUDIT
The scope of this self-initiated audit was to follow up on the actions MMS had taken to
implement the three recommendations made in our August 1994 report and to determine
whether MMS has ensured that royalty payors deducted only the appropriate amount of oil
and gas transportation allowances and gas processing allowances from royalties due. To
accomplish our objective, we performed audit work at MMS’s Royalty Management
Program in Lakewood, Colorado, and the offshore operations in Santa Maria, California. We
also visited the offices of Chevron Oil Company in San Ramon, California; Marathon Oil
Company in Findlay, Ohio; and Yates Petroleum Corporation in Artesia, New Mexico.

In performing our audit, we reviewed MMS’s allowance limit exception processing system;
examined selected lease data and transportation allowances for both onshore and offshore
operations for calendar year 1997; interviewed MMS officials regarding implementation of
our prior recommendations; and reviewed Indian annual allowance forms for calendar years
1996, 1997, and 1998 for 14 judgementally selected leases based on leases that had a
significant amount of royalties.

Our audit was made in accordance with the “Government Auditing Standards,” issued by the
Comptroller General of the United States. Accordingly, we included such tests of records

                                               4
and other auditing procedures that were considered necessary under the circumstances. As
part of our audit, we evaluated the system of internal controls to the extent we considered
necessary. We also reviewed the Departmental Report on Accountability for fiscal year
1998, which includes information required by the Federal Managers’ Financial Integrity Act
of 1982, and MMS’s annual assurance statement on management controls for fiscal year
1998 to determine whether any reported weaknesses were within the objective and scope of
our audit, Neither the Accountability Report nor the assurance statement addressed oil or
gas transportation allowances.

PRIOR AUDIT COVERAGE
The General Accounting Office has not issued any audit reports during the past 5 years on
MMS’s oil and gas transportation allowances or gas processing allowances. Our August
1994 report “Transportation and Processing Allowance Deductions, Minerals Management
Service” (No. 94-I-l 110) contained three recommendations to the MMS Director. We
recommended that MMS monitor transportation and processing allowances deducted by
royalty payors; notify royalty payors of any,allowance reporting differences and request that
they explain the allowance differences; and implement an allowance limit exception
processing enhancement to the automated allowance tracking system. MMS concurred with
the report’s three recommendations.

                              RESULTS OF AUDIT
We found that two of the three prior recommendations in our August 1994 report were no
longer valid for Federal leases or Indian gas leases after December 3 1, 1999, because of
revisions to the valuation regulations and that MMS had implemented the remaining
recommendation. In addition, based on our limited audit of both offshore and onshore
transportation allowances and offshore gaS processing allowances on selected leases, we
found that royalty payors had deducted the appropriate amount of oil and gas transportation
and processing allowances from royalties due. However, we found that MMS was not
maintaining an accurate filing system for tracking allowance reports for oil production on
Indian leases. We believe that MMS should maintain a filing system so that it can provide
information from the allowance reports, copies of the arm’s_length contracts, or actual cost
information to the tribes when requested by tribal officials.

Prior Audit Report Recommendations
Recommendation 1. Monitor the transportation and urocessing allowances deducted by
royalty navors to determine whether the deductions exceeded the actual allowance costs
reported to the Service.

Recommendation 2. Notify royaltv navors of the allowance renorting differences and request
that they exnlain the allowance differences and correct the allowance reports or nay
additional royalties.
We found that Recommendations 1 and 2 from our 1994 audit report (No. 94-I- 1110) were
no longer applicable to Federal leases as of March 1996 and do not apply to Indian gas leases
after December 31, 1999. MMS’s “Revision of Valuation Regulations Governing Oil and
Gas Transportation and Processing Allowances, and Coal Washing and Transportation
Allowances,” effective on March 1, 1996, and “Amendments to Gas Valuation Regulations
for Indian Leases” effective on January 1,2000, eliminated the requirement of submitting
allowance reports’ that estimated deductions to royalties due. However, payors that report
actual allowances for Indian gas leases based on an arm’s_length contract will be required
to file a copy of the contract with MMS within 2 months of the date the payor deducts the
allowance on Form MMS-2014. Payors of Indian leases that do not have arm’s_length
contracts* are required by 30 CFR 4 206 to submit actual cost information to support the
allowance on Form MMS-4295, “Gas Transportation Allowance Report,” within 3 months
after the end of the 12-month period to which the allowance applies. As a result, MMS will
receive allowance information on some Indian leases and will need to maintain that data for
use by tribal officials.

MMS published the final rule titled “Amendments to Gas Valuation Regulations for Indian
Leases” in the “Federal Register” (64 FR 43506, dated August 10, 1999), which became
effective on January 1,200O. This new rule shifted the emphasis from estimated allowances
to actual allowances for gas transportation and gas processing allowances. Payors that report
the value of gas to MMS using index-based values, majority prices, or the alternative
methodology for dual accounting include a 10 percent factor for transportation that does not
require additional support to be submitted by the payor. Changes in requirements for filing
forms are summarized in the Appendix.

To implement the new rule, an MMS official told us that the document entitled “Strategy on
Implementation of the Indian Gas Rule,” which included the steps for filing, tracking, and
distributing data and forms under the new regulations, was presented to and accepted by the
State and Tribal Royalty Audit Committee at a meeting held in January 2000. These steps
included the establishment of a database to identify leases, fund codes, effective dates, and
payor codes. MMS’s State and Indian Compliance Division will tile and track letters for
transportation, valuation notices, and arm’s-length transportation and processing contracts,
and it will distribute these documents to Indian tribes if requested.

Recommendation 3. Implement the allowance limit exception processing enhancement for
the automated allowance tracking svstem to identify allowance deductions that exceeded the
regulatorv limitations without the reauired approval from the Service and to identify


‘Prior to March 1, 1996, all royalty payors had to file an initial allowance report based on estimated or actual
costs if known at the time of submission before any allowance could be deducted on Form MMS-2014.
Effective in March 1996, the “Revision of Valuation Regulations Governing Oil and Gas Transportation and
Processing Allowances, and Coal Washing and Transportation Allowance” eliminated the requirement for
tiling annual allowance reports for Federal leases. However, payors are still required to submit annual
allowance reports and report differences based on actual costs to MMS for Indian oil leases.

‘The Code of Federal Regulations (30 CFR $ 206.15 1) describes an arm’s_length contract as “a contract or
agreement that has been arrived at in the marketplace between independent, nonaffiliated persons with
opposing economic interests regarding that contract.”

                                                       6
allowance deductions that eauaied or exceeded 100 uercent of the rovaltv value. Also,
rovaltv nayors should be reauired to nay additional royalties and interest where annlieable.

The Allowance Limit Exception Processing enhancement was implemented in November
1997. We obtained a data base of onshore royalty payments for calendar year 1997 and
reviewed oil and gas transportation allowance and gas processing allowance deductions to
determine whether the enhancement prevented payors from taking allowances that exceeded
99 percent of the royalty values. We found that no allowances exceeded 99 percent of the
royalty value. In addition, we performed limited testing to determine whether allowances
in excess of regulatory limitations were deducted by payors without an approved payor
allowance limit request. We found no instances of allowances taken in excess of regulatory
limitations for which a request had not been approved. In addition, we found, for the
allowances reviewed of $20.7 million for calendar year 1997, which consisted of
$19.8 million from offshore operations and $.9 million from onshore operations, that the
payors were able to support the allowances claimed.

In our March 9,2000, exit conference with officials from MMS headquarters and the Royalty
Management Program, the officials agreed with the conclusions presented in a draft of this
report.

Since this report does not contain any recommendations, a response is not required.

Section 5(a) of the Inspector General Act (5 U.S.C. app. 3) requires the Office of Inspector
General to list this report in its semiannual report to the Congress. In addition, the Office
of Inspector General provides audit reports to the Congress.
                                                                                                 APPENDIX

                         CHANGES IN REQUIREMENTS FOR
                          FILING ALLOWANCE REPORTS


       Period           Oil (Federal)          Gas (Federal)           Oil (Indian)          Gas (Indian)
    March 1988          Allowance forms        Allowance forms       Allowance forms        Allowance forms
        to              required to be         required to be        required to be         required to be
    March 1996          filed prior to         filed prior to        filed prior to         filed prior to
                        taking allowance.      taking allowance.     taking allowance.      taking allowance.
                        No form filing         No form tiling        Allowance forms        Allowance forms
    March 1996          requirements           requirements          required to be         required to be
        to              unless over            unless over           filed prior to         filed prior to
   January 2000         regulatory             regulatory            taking allowance.      taking allowance.
                        maximums.              maximums.

     After              No form filing         No form filing        Allowance forms        For arm’s_length
   January 2000         requirements           requirements          required to be         contracts, copies
                        unless over            unless over           tiled in advance       of the contracts to
                        regulatory             regulatory            of taking              be filed within 2
                        maximums.              maximums.             allowance.             months of taking
                                                                                            allowance.

                                                                                            For non-arm’s-
                                                                                            length contracts,
                                                                                            allowance forms
                                                                                            to be tiled within
                                                                                            3 months after
                                                                                            end of period*
                                                                                            based on actual
                                                                                            cost information.


* In compliance with MMS’s “Amendments to Gas Valuation Regulations for Indian Leases,” payors may
choose the actual or the alternative method of dual accounting (dual accounting refers to the requirement to
pay royalty based on a value that is the higher of the value of gas prior to processing less any applicable
allowances as compared with the combined value of drip condensate, residue gas, and gas plant products after
processing less applicable allowances). If the alternative method is used, royalty payments and allowance
deductions are based on a formula predetermined by MMS. In addition, payors in a designated index zone
(index zone is an area with an active spot market and published indices applicable to that field or area that are
acceptable to MMS) report under MMS’s formula. In these situations, contracts or other supporting
documentation does not have to be filed.
                  ILLEGAL OR WASTEFUL ACTIVITIES
                      SHOULD BE REPORTED TO
                 THE OFFICE OF INSPECTOR GENERAL


                    Internet Complaint Form Address


                   http://www.oig.doi.gov/hotline_form.html


                  Within the Continental United States

U.S. Department of the Interior                        Our 24-hour
Office of Inspector General                            Telephone HOTLINE
1849 C Street, N. W.                                   l-800-424-508 1 or
Mail Stop 5341 - MIB                                   (202) 208-5300
Washington, D.C. 20240-0001
                                                       TDD for hearing impaired
                                                       (202) 208-2420



                  Outside the Continental United States

                                    Caribbean Region

U.S. Department of the Interior                        (703) 235-9221
Office of Inspector General
Eastern Division - Investigations
4040 Fairfax Drive
Suite 303
Arlington, Virginia 22203

                                     Pacific Region

U.S. Department of the Interior                        (67 1) 647-6060
Office of Inspector General
Guam Field Office
4 15 Chalan San Antonio
Baltej Pavilion, Suite 306
Agana, Guam 96911
U.S. Department of the Interior
Office of Inspector General
1849 C Street, NW
Mail Stop 5341- MIB
Washington, D.C. 20240-000 1

Toll Free Number
      l-800-424-508 1

FTSKommercial Numbers
    (202) 208-5300
    TDD (202) 208-2420
